Appendix A
1a

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DANIEL LOVATO,

FILED
United States Court of Appeals
Tenth Circuit

June 23, 2020
Christopher M. Wolpert
Clerk of Court

No. 18-1468
(D.C. No. 1:18-CR-00213-RM-1)
(D. Colo.)

Defendant - Appellant.
_________________________________
ORDER
_________________________________
Before BACHARACH, KELLY, and CARSON, Circuit Judges.
_________________________________
This matter is before the court on Appellant’s Petition for Rehearing En Banc. The
petition was transmitted to all non-recused judges of the court who are in regular active
service. As no member of the panel and no non-recused judge in regular active service on
the court requested that the court be polled, the request for rehearing en banc is DENIED
pursuant to Fed. R. App. P. 35(f).
The three pending motions for leave to file an amicus brief are GRANTED.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Appendix B
2a

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

February 27, 2020

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 18-1468

DANIEL LOVATO,
Defendant - Appellant.
_________________________________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:18-CR-00213-RM-1)
_________________________________
John C. Arceci, Assistant Federal Public Defender (Shira Kieval, Assistant Federal Public
Defender, and Virginia L. Grady, Federal Public Defendant, on the briefs), Office of the
Federal Public Defender for the Districts of Colorado and Wyoming, Denver, CO, for the
Appellant Daniel Lovato.
Paul Farley, Assistant United States Attorney (Jason R. Dunn, United States Attorney,
with him on the brief), Office of the United States Attorney for the District of Colorado,
Denver, CO, for the Appellee.
_________________________________
Before BACHARACH, KELLY, and CARSON, Circuit Judges.
_________________________________
CARSON, Circuit Judge.
_________________________________
This action arose out of the district court’s admission of a 911 call under the
present sense impression exception to the rule against hearsay. Defendant Daniel

Appendix B
3a

Lovato (“Defendant”) alleges that, in doing so, the district court abused its
discretion. 1 Following admission of the 911 call, a jury convicted Defendant of two
counts of being a felon in possession of a firearm or ammunition. The district court
merged the two counts of conviction, and sentenced Defendant to 100 months’
imprisonment followed by three years of supervised release. We exercise jurisdiction
under 28 U.S.C. § 1291 and affirm Defendant’s conviction.
I.
On March 3, 2018, a man called 911 to report that he witnessed two men in a
Honda shoot at another car. The caller followed the Honda and dialed 911 within
“two to three minutes” of observing the gunfire. 2 During the approximately thirteenminute 911 call, the caller discussed the shooting, his continuing observations of the
Honda and its occupants, and his safety, often in response to the 911 operator’s
questions.
The caller began the call by stating that occupants of the Honda “just shot at”
another car. After providing his location, phone number, and name to the 911
operator, the caller again described his observations of the shooting less than one
minute into the call. Specifically, the caller stated that he observed two Hispanic
males in the Honda shoot at a white Durango. Less than three minutes into the call,

Defendant presented two collateral issues related to his sentence, both of
which the parties now agree that our recent opinions resolve.
1

In quoting the 911 call, we rely on the audio recording of the call on file.
The recording does not differ materially from the written transcript of the 911 call.
2

2

Appendix B
4a

the caller informed the 911 operator that the shooting occurred “five or six minutes
ago.”
While the caller continued to follow the Honda, he conveyed additional
information of his observations of the Honda. The 911 operator returned the
conversation to the shooting about five minutes into the call—seven to eight minutes
after the shooting occurred. The caller responded that someone in the Honda fired
“two shots,” and provided the exact location of the shooting. Just over eight minutes
into the call, the 911 operator asked for a description of the suspects, which the caller
provided. The caller next stated that the passenger of the Honda was the shooter.
Finally, the caller observed the Honda run a red light, at which point he lost sight of
the Honda. The caller provided his address to the 911 operator and, with the Honda
then out of sight, ended the call after about thirteen minutes.
Shortly thereafter, responding police officer Levi Braun (“Officer Braun”)
located a Honda matching the caller’s description. With Officer Braun in pursuit, the
Honda slowed down and Defendant jumped out of the passenger’s side of the moving
car. Officer Braun stopped to detain Defendant, who volunteered that he had a gun
on him. Officer Braun then retrieved a .22 caliber pistol from Defendant’s
waistband, along with thirty-two rounds of .22 caliber ammunition from Defendant’s
left front pants pocket. The pistol had a spent shell casing in the chamber, which
indicated that someone recently fired the weapon. Officer Braun also located a
canister filled with more ammunition in the street near Defendant. Defendant told

3

Appendix B
5a

officers that the driver of the Honda gave him the gun and ammunition, pointed a
second gun at him, and threatened to shoot him if he did not jump out of the car.
At the time of this incident, Defendant had prior felony convictions. The
government ultimately charged Defendant with three violations of the 18 U.S.C.
§ 922(g)(1) for being a felon in possession of a firearm or ammunition: one each for
possessing the .22 caliber pistol, thirty-two rounds of .22 caliber ammunition, and
canister full of additional ammunition.
At trial, Defendant objected to the admission of the 911 call on hearsay
grounds. The district court overruled the objection and admitted the 911 call into
evidence under the present sense impression exception to the rule against hearsay.
The district court concluded “that the length of the call, and the continuous
discussion is [not] such that it destroys the contemporaneousness” required to qualify
as a present sense impression. The district court based its conclusion on a finding
that the call was “essentially, a continuous conversation” about “the same continuing
event.” The government played the 911 call for the jury.
Although Defendant admitted to possessing the .22 caliber pistol and
ammunition, he raised the affirmative defense of duress caused by the driver’s threat.
Defendant further claimed that the driver was the one who shot at the other car. The
911 call contradicted significant aspects of Defendant’s testimony. The jury

4

Appendix B
6a

ultimately convicted Defendant on two counts of violating 18 U.S.C. § 922(g)(1) for
possession of the .22 caliber pistol and ammunition in his pants pocket. 3
After granting Defendant’s motion to merge the two counts of conviction, the
district court sentenced Defendant to 100 months’ imprisonment. 4 The district court
also imposed a three-year term of supervised release with special conditions
following Defendant’s release from prison. Of note, the third special condition of
supervised release (“Special Condition Three”) requires Defendant to “take all
medications that are prescribed by [his] treating psychiatrist” and “cooperate with
random blood tests” to demonstrate compliance with the condition. Defendant now
appeals.
II.
Defendant contends the district court abused its discretion by admitting the
911 call over his hearsay objection. Specifically, Defendant argues the 911 call does
not qualify under the present sense impression exception to the rule against hearsay.
“We review the district court’s evidentiary rulings for an abuse of discretion,
considering the record as a whole.” United States v. Trujillo, 136 F.3d 1388, 1395
(10th Cir. 1998). “Because hearsay determinations are particularly fact and case

The jury acquitted on the third count of being a felon in possession of
ammunition regarding the ammunition canister.
3

Over Defendant’s objection, the district court found that Defendant had two
prior convictions for crimes of violence, and correctly calculated Defendant’s
guideline sentencing range to be 100 to 125 months based on a total offense level of
24.
4

5

Appendix B
7a

specific, we afford heightened deference to the district court when evaluating hearsay
objections.” Id.
“‘Hearsay’ is a statement, other than one made by the declarant while
testifying at the trial or hearing, offered in evidence to prove the truth of the matter
asserted.” United States v. Collins, 575 F.3d 1069, 1073 (10th Cir. 2009) (quoting
Fed. R. Evid. 801(c)). Under Federal Rule of Evidence (“Rule”) 802, hearsay is
inadmissible, subject to certain exceptions. Fed. R. Evid. 802. A declarant’s
“present sense impression” qualifies as one such exception. Fed. R. Evid. 803(1).
Under Rule 803(1), “[a] statement describing or explaining an event or
condition, made while or immediately after the declarant perceived it” is admissible
as an exception to the rule against hearsay, regardless of whether the declarant is
available as a witness. Id. “In evidence law, we generally credit the proposition that
statements about an event and made soon after perceiving that event are especially
trustworthy because ‘substantial contemporaneity of event and statement negate the
likelihood of deliberate or conscious misrepresentation.’” Navarette v. California,
572 U.S. 393, 399–400 (2014) (quoting Fed. R. Evid. 803(1) advisory committee’s
notes to 1972 proposed rules (emphasis added)). “Unsurprisingly, 911 calls that
would otherwise be inadmissible hearsay have often been admitted on those
grounds.” Id. at 400 (analogizing to the present sense impression exception in a
Fourth Amendment case). Defendant argues that: (1) the district court abused its
discretion by analyzing the 911 call as a whole and (2) the caller’s statements were

6

Appendix B
8a

not sufficiently contemporaneous to qualify as present sense impressions. 5 We
address Defendant’s arguments in turn.
A.
We start by addressing the manner in which the district court considered the
admissibility of the 911 call. On this issue, we conclude that the district court
properly analyzed the 911 call as a whole because: (1) no authority requires
otherwise in this context, (2) all the statements made within the call pertain to the
same temporal event without a substantial change in circumstances, and (3) other
relevant factors support the reliability of the statements within the call.
No authority creates a blanket requirement that a court must individually
analyze each statement within a broader narrative under the present sense impression
exception. Indeed, we have affirmed the admission of entire 911 calls as present
sense impressions without requiring such a particularized inquiry. See United States
v. Allen, 235 F.3d 482, 493 (10th Cir. 2000) (concluding that a 911 tape as a whole
“was admissible as . . . a present sense impression”). Where we—or the Supreme
Court—have not recognized a novel rule or extended a principle to a materially
distinct context, it stands to reason that the district court did not abuse its discretion
in likewise declining to do so. See Sorbo v. United Parcel Serv., 432 F.3d 1169,

Defendant also argues that the 911 call includes speculative statements that
are not admissible as present sense impressions. Defendant imbeds this contention
within his argument that the statements lack sufficient contemporaneity because, the
argument follows that, speculation demonstrates that the caller had an opportunity for
reflection or interpretation. We will address this argument in like manner.
5

7

Appendix B
9a

1177 (10th Cir. 2005) (reasoning that a district court does not abuse its discretion
when we “know of no authority suggesting that the district court was required” to act
in a certain manner). Even though some circumstances may require a court to
conduct a more particularized analysis—and we are certainly not saying that the
district court would have abused its discretion had it done so here—those
circumstances are not present in this case. See Williamson v. United States, 512 U.S.
594, 599 (1994) (conflicting motives for separate statements); United States v.
Jackson, 124 F.3d 607, 618 (4th Cir. 1997) (intervening event between statements).
Defendant, however, argues that Williamson requires courts to individually
analyze whether each statement within a 911 call is admissible. 512 U.S. at 599. We
acknowledge the Supreme Court has opined that the definition of a “statement” under
the hearsay rules is limited to “a single declaration or remark” and Rule 803(1) refers
to a “statement” that qualifies as present sense impression. Id. (determining in the
context of statements against interest that a court must exclude non-self-inculpatory
parts of a broader, generally self-inculpatory narrative as inadmissible hearsay). But
the principle from Williamson is readily distinguishable because it arises in the
context of self-inculpatory statements and is supported by an entirely different
rationale than at issue here. See id.
Specifically, the rationale behind separating out non-self-inculpatory
statements from self-inculpatory ones is based on credibility concerns due to a
declarant’s motivation for self-inculpation. See id. at 599–600 (observing that “[o]ne
of the most effective ways to lie is to mix falsehood with truth, especially truth that
8

Appendix B
10a

seems particularly persuasive because of its self-inculpatory nature”). Motivation for
self-inculpation, however, is not at issue here because the 911 caller in this case was
a non-party observer, detached from any allegations of wrongdoing.
In this context, the district court did not need to disassociate each statement
within the call to ameliorate credibility concerns. We therefore decline to extend the
principle in Williamson to this case because the 911 caller’s status as a disinterested
observer eliminates the need to assess whether self-serving motives tainted the
credibility of individual statements within the 911 call. See id. Thus, we conclude
that the district court did not abuse its discretion solely by considering the
admissibility of the 911 call as a whole, rather than parsing each individual statement
within the call.
Next, no substantial change in circumstances occurred during the call. When a
significant, intervening event or substantial change in circumstances occurs between
statements, Rule 803(1) may require a court to treat a declarant’s statements
differently. See Jackson, 124 F.3d at 618 (observing that a witness’s statement made
after police intervened and gained control of the scene may not qualify as a present
sense impression even though earlier statements did qualify). Here, the caller
witnessed a shooting, called 911, and followed the Honda during the call with no
interruption or police intervention. The caller maintained focus on the Honda and its
occupants for the entirety of the discussion. Although the discussion shifts between
related topics, the call continually focused on an ongoing stream of observations,
which supports the admissibility of the call as a whole. See United States v. Beck,
9

Appendix B
11a

122 F.3d 676, 682 (8th Cir. 1997) (indicating statements made about events that
“were part of a single, continuous event” were properly admitted under Rule 803(1)).
Finally, the factors relevant to Rule 803(1)’s trustworthiness rationale applied
to the call as a whole. “A 911 call has some features that allow for identifying and
tracing callers, and thus provide some safeguards against making false reports with
immunity.” Navarette, 572 U.S. at 400. Although the use of the 911 system alone
“does not ‘suggest that tips in 911 calls are per se reliable,’” a caller’s use of the
system mitigates some concern regarding reliability. United States v. Gaines, 918
F.3d 793, 806 (10th Cir. 2019) (Tymkovich, C.J., dissenting) (quoting Navarette, 572
U.S. at 401). 6 Other indicia of reliability are present “when the caller reveals where
he is located, jeopardizing his anonymity; does not decline to give any information,
especially identifying information; and does not seem in any hurry to make an
allegation and hang up.” Id. at 806–07 (observing when a caller does not describe
activities with precise contemporaneity, it “weakens the reliability” of the call as a
whole, but “other indicia of reliability” can make the call “fairly credible” evidence
when viewed in full context (id. at 806)).

To be clear, a particular credibility judgment of the declarant does not make
or prohibit a statement from being present sense impression, but the means through
which a declarant speaks can be relevant to the trustworthiness—and, therefore,
admissibility—of the statement itself. See Navarette, 572 U.S. at 397 (observing that
courts can more often rely on an attributable 911 call than an anonymous tip because
the former is more reliable evidence); see also United States v. Parker, 936 F.2d 950,
954 (7th Cir. 1991) (reasoning that the admissibility of statements under Rule 803(1)
can be “buttressed by the intrinsic reliability of the statements”).
6

10

Appendix B
12a

Those same reliability factors apply here. The caller was not anonymous, but
rather provided his full name, phone number, and home address during the call. The
circumstances of the call, therefore, created a “disincentive for making false
allegations,” which increases the reliability of its collective statements. See Gaines,
918 F.3d at 806. These factors equally support the truthfulness of each statement
within the 911 call, which were all admissible as present sense impressions. See
Parker, 936 F.2d at 954. Accordingly, the district court did not abuse its discretion in
considering the admissibility of the 911 call as a whole because the entire call was
sufficiently reliable.
B.
Next, we must address whether the caller’s statements were sufficiently
contemporaneous to qualify as present sense impressions. In addressing this
question, we must apply the appropriate level of deference to the district court’s
consideration of case-specific facts. See United States v. Banks, 761 F.3d 1163,
1197 (10th Cir. 2014) (explaining that “we will not disturb the ruling unless it is
arbitrary, capricious, whimsical or manifestly unreasonable, or we are convinced that
the district court made a clear error of judgment or exceeded the bounds of
permissible choice”). Defendant contends that Rule 803(1) requires immediate
contemporaneity, and, even if it does not, the passage of time between the 911
caller’s observations and statements destroyed the necessary contemporaneity. We
reject these arguments. To begin with, Rule 803(1) “recognizes that in many, if not
most, instances precise contemporaneity is not possible and hence a slight lapse is
11

Appendix B
13a

allowable.” Fed. R. Evid. 803(1) advisory committee’s notes to 1972 proposed rules;
see also Christopher B. Mueller & Laird C. Kirkpatrick, 4 Fed. Evid. § 8:67 (4th ed.
June 2019 Update) (commenting that a slight lapse is acceptable under Rule 803(1)
because “a small delay . . . is not enough to allow reflection, which would raise
doubts about trustworthiness”). 7 Thus, the advisory committee has specifically
addressed at least half of Defendant’s argument and reached a contrary conclusion.
Defendant’s position is also belied by the fact that courts addressing the issue
have refused to adopt a “per se rule indicating what time interval is too long under
Rule 803(1).” United States v. Hawkins, 59 F.3d 723, 730 (8th Cir. 1995) (quoting
Parker, 936 F.2d at 954), vacated and remanded on other grounds sub. nom., Hawkins
v. United States, 516 U.S. 1168 (1996). And that makes sense because “[t]he
underlying rationale of the present sense impression exception is that substantial
contemporaneity of event and statement minimizes unreliability due to defective
recollection or conscious fabrication.” Id. Thus, instead of recognizing a bright-line
rule for specific time intervals and admissibility, courts have held that “the

But see United States v. Rosetta, 127 F.3d 1110, at *2 (10th Cir. 1997)
(unpublished table decision) (stating that “a delay of minutes or hours between an
event and a statement bars resort to [Rule] 803(1)” in concluding that a victim’s
statement made approximately nine hours after an assault was not admissible under
the present sense impression exception, but was admissible as an excited utterance).
In other words, we suggested that an unspecified period of minutes may be too long
to preserve substantial contemporaneity under Rule 803(1). Id. Our conjecture in
Rosetta is too imprecise to provide significant guidance here beyond the conclusion
that a nine-hour delay between event and statement is too long. Moreover, we
generally disfavor the citation of orders and judgments, so Rosetta is both nonbinding and non-persuasive in this case. See 10th Cir. R. 32.1.
7

12

Appendix B
14a

admissibility of statements under hearsay exceptions depends upon the facts of the
particular case.” United States v. Blakey, 607 F.2d 779, 785 (7th Cir. 1979),
overruled on other grounds by United States v. Harty, 930 F.2d 1257, 1263 (7th Cir.
1991). Underlying all of this is the notion that “[t]he need for deference to a trial
court ruling on a hearsay objection is particularly great because the determination of
whether certain evidence is hearsay rests heavily upon the facts of a particular case.”
United States v. Rodriguez-Pando, 841 F.2d 1014, 1018 (10th Cir. 1988).
The 911 call in this case involved statements relaying the caller’s
contemporaneous observations during his pursuit of the Honda, as well as statements
describing what the caller observed minutes earlier. Although the call lasted about
thirteen minutes in total, the caller first provided details of the shooting only three or
four minutes after observing the event. The weight of authority from other
jurisdictions counsels in favor of admitting 911 calls such as this one because such a
short delay does not give rise to much opportunity for reflection or interpretation that
could undermine the reliability of the statements. See, e.g., United States v. Davis,
577 F.3d 660, 669 (6th Cir. 2009) (stating that “it does not matter whether the [911]
call was made thirty seconds or five minutes after witnessing the event” because the
time interval did not diminish the reliability of the statements); United States v.
Shoup, 476 F.3d 38, 42–43 (1st Cir. 2007) (concluding that a district court does not
commit obvious error in admitting a 911 call where the caller dials 911 “one or two
minutes” after perceiving an event (id. at 40)); Hawkins, 59 F.3d at 730 (affirming
the admission of a 911 call placed seven minutes after an event occurred, during
13

Appendix B
15a

which time the caller moved locations due to the event, because the slight delay did
not allow significant opportunity for conscious fabrication). To be sure, the caller’s
statements here are even more contemporaneous with the underlying event (the
shooting) than other statements admitted as present sense impressions. See Hawkins,
59 F.3d at 730 (concluding that seven minutes did not destroy sufficient
contemporaneity); see also Blakey, 607 F.2d at 785–86 (affirming the admission of
statements under Rule 803(1) where the interval was potentially twenty-three minutes
between event and statements when “coupled with the substantial circumstantial
evidence corroborating the statements’ accuracy”). Accordingly, the three to fourminute delay between the shooting and first descriptive statements did not destroy the
necessary contemporaneity.
The context surrounding the 911 call in this case also supports the reliability of
the statements. Although statements about the shooting and suspects are interspersed
throughout the call, the 911 caller made the statements in a discrete period without
any break, interruption, or intervening event. See supra Part II(A) (citing Jackson,
124 F.3d at 618; Beck, 122 F.3d at 682). The facts that the 911 call began soon after
the caller observed the shooting and focused on “the same continuing event” weighs
against the adverse effect of the length of the call on sufficient contemporaneity. See
Blakey, 607 F.2d at 786 (affirming the admission of recorded statements even though
“[a] relatively large amount of conversation was recorded” because the conversation
began “soon after” the underlying event and focused on that central event). The
caller’s continued focus on the Honda and engagement with the 911 operator further
14

Appendix B
16a

limited his opportunity for “defective recollection or conscious fabrication” while
providing detailed statements about the shooting. Hawkins, 59 F.3d at 730.
Defendant also takes issue with the admission of the 911 call because the
caller made several statements in response to the 911 operator’s questions.
Defendant argues that the 911 operator’s questions provided an “opportunity for
strategic modification,” which “undercuts the reliability that spontaneity insures.”
See United States v. Manfre, 368 F.3d 832, 840 (8th Cir. 2001). 8 The mere fact that
the caller made statements in response to questions, however, does not demonstrate
that the statements were a product of strategic modification outside the bounds of
Rule 803(1). See United States v. Boyce, 742 F.3d 792, 797 (7th Cir. 2014)
(observing that a caller “can still make statements without calculated narration even
if made in responses to questions”). Indeed, those facts do not materially diminish
spontaneity under the circumstances, which supports the rationale for Rule 803(1).
See Manfre, 368 F.3d at 840.
Similarly, the caller’s movement from the location of the shooting through his
pursuit of the Honda does not eliminate sufficient contemporaneity. See United

Defendant cites United States v. Green, 556 F.3d 151, 157 (3d Cir. 2009) in
support of his argument, but Green is distinguishable. There, law enforcement
searched, transported, and formally debriefed a confidential informant before the
informant gave a statement fifty minutes after perceiving an event. The court
reasoned that these facts “affirmatively indicate[] that [the confidential informant]
made his statement after he was expressly asked to reflect upon the events in
question, and thereby fatally disqualifies the declaration for admission as a presentsense impression.” Id. No such law enforcement intervention or debriefing occurred
here, nor is the delay between statement and event near the fifty-minute delay that the
speaker experienced in Green. Id.
8

15

Appendix B
17a

States v. Dean, 823 F.3d 422, 428 (8th Cir. 2016) (concluding that a “911 call and
recorded statements occurred with sufficient contemporaneity” where the caller had
time to leave an apartment in which an event took place before calling 911 to
describe the event); Hawkins, 59 F.3d at 730 (the caller traveled from an apartment to
a nearby convenience store before calling 911). The caller made his statements
regarding the catalyst of the event (the shooting) within two or three minutes of the
shooting, and while observing “the same continuing event” from behind the wheel of
his car. See supra Part II(A). Taken together, the facts demonstrate the caller made
the statements with no more than the “slight lapse” allowed by Rule 803(1) between
event and statement. Fed. R. Evid. 803(1) advisory committee’s notes to 1972
proposed rules.
Finally, the call was sufficiently reliable evidence. As discussed above, we
look to “other indicia of reliability” outside of the call itself to assess its reliability as
evidence. Gaines, 918 F.3d at 806. And “substantial circumstantial evidence
corroborating the statements’ accuracy” can justify the admittance of a call under
Rule 803(1) despite a particularly long delay between event and statement. See
Blakey, 607 F.2d at 786 (relying on such evidence to verify reliability where the
delay was up to twenty-three minutes); see also Parker, 936 F.2d at 954. After all,
“[t]he core inquiry under the rule concerns the reliability of the declarant” under the
circumstances. First State Bank of Denton v. Md. Cas. Co., 918 F.2d 38, 42 (5th Cir.
1990) (internal quotation marks and citation omitted).

16

Appendix B
18a

The 911 caller in this case was a disinterested party with no known motive to
fabricate information. See id. (affirming the admission of hearsay statements
because the declarant “had little motive to lie and was relating information he had
just gathered . . . even assuming it did not meet the precise contours of [R]ule
803(1)”). The fact that Officer Braun corroborated several of the caller’s statements
in short order further adds to the statements’ reliability. 9 Even though Officer Braun
did not corroborate every detail of the caller’s statements—in fact, some peripheral
details proved erroneous 10—Defendant retained the opportunity to attack the
reliability of these statements in the presentation of his defense. The fact that the 911
recording system preserved the caller’s statements, such that “there is no uncertainty
as to the content of the declarant’s statement[s]” further supports the reliability
rationale for admitting hearsay statements under Rule 803(1). Blakey, 607 F.2d at
785. On balance, we conclude that substantial corroboration of the 911 caller’s
disinterested statements demonstrates that the statements were particularly reliable
evidence. First State Bank of Denton, 918 F.2d at 42.
Accordingly, we hold that the 911 caller’s statements qualified as present
sense impressions. The “timeline of events suggests that the caller reported the

Specifically, by the time Officer Braun detained Defendant, he corroborated
the caller’s statements about the Honda’s direction of travel, a distinctive feature of
the Honda, and Defendant’s appearance.
9

Specifically, the caller said the gun used in the shooting sounded like a
9mm, but Officer Braun discovered a .22 caliber pistol on Defendant’s person. The
caller also guessed that Defendant was in his twenties, but Defendant was 38 years
old at the time of the event.
10

17

Appendix B
19a

[shooting] soon after” he perceived it and his continuing observations of the Honda
and its occupants are the “sort of contemporaneous report [that] has long been treated
as especially reliable” in evidence law. Navarette, 572 U.S. at 399. Our conclusion
is consistent with the manner in which courts have analyzed sufficient
contemporaneity under similar circumstances, and other indicia of reliability
bolstered the admissibility of the 911 call in this case. See Gaines, 918 F.3d at 804.
We therefore affirm the district court’s decision to admit the 911 call in its
entirety under the present sense impression exception to the rule against hearsay. 11
III.
Defendant contends that his prior conviction for attempted second-degree
assault in Colorado is not for a crime of violence. Defendant, however, concedes that
circuit precedent precludes both of his assertions on this point. We observe that
Defendant maintains the argument strictly for preservation purposes.
Specifically, Defendant concedes that United States v. Mendez, 924 F.3d 1122
(10th Cir. 2019) forecloses his first assertion that Colorado “attempt” is broader than
generic “attempt.” 924 F.3d at 1126 (observing that a defendant can do “no more
than offer theoretical grounds on which some conduct might constitute criminal
attempt in Colorado but not under the generic definition of the term”). Defendant
further concedes that United States v. Martinez, 602 F.3d 1166 (10th Cir. 2010)
forecloses his second assertion that Colorado attempt falls outside the ambit of

Because we conclude that the district court did not abuse its discretion in
admitting the 911 call, we need not reach the parties’ harmless error arguments.
11

18

Appendix B
20a

Application Note 1 to United States Sentencing Guidelines § 4B1.2(a). 602 F.3d at
1174 (reasoning that attempting to commit a crime of violence is itself a crime of
violence). Accordingly, we affirm the district court’s sentencing calculation.
IV.
Defendant finally argues that the district court committed plain error in
ordering Special Condition Three, without making any particularized supportive
findings. Special Condition Three requires Defendant to take all medications that
may be prescribed by his psychiatrist, and to demonstrate compliance through
random blood tests. In light of our recent decision in United States v. Malone, 937
F.3d 1325, 1329 (10th Cir. 2019), the government submitted a letter pursuant to
Federal Rule of Appellate Procedure 28(j) conceding that the district court plainly
erred in imposing Special Condition Three. Accordingly, we vacate and remand on
this issue for further proceedings.
V.
For the foregoing reasons, we AFFIRM Defendant’s conviction, vacate Special
Condition Three, and REMAND for further proceedings consistent with this opinion.

19

Appendix B
21a

United States v. Daniel Lovato, No. 18-1468, Bacharach, J., concurring.
I agree with the majority that the district court did not abuse its
discretion in admitting the 911 call, that the district court’s sentencing
calculation was proper, and that we should vacate Special Condition Three.
But I respectfully disagree with the majority’s conclusions that (1) the
court should analyze the 911 call as a whole and (2) we should consider
“other indicia of reliability” to determine whether the 911 call is
admissible as a present-sense impression under Fed. R. Evid. 803(1).
Majority Op. at 17.
1.

The exception for present-sense impressions applies to individual
statements, not conversations.
Under the Federal Rules of Evidence, a present-sense impression is

admissible as an exception to the rule against hearsay. Fed. R. Evid. 803.
A present-sense impression is “[a] statement describing or explaining an
event or condition, made while or immediately after the declarant
perceived it.” Fed. R. Evid. 803(1). A “statement” is in turn defined as “a
person’s oral assertion, written assertion, or nonverbal conduct, if the
person intended it as an assertion.” Fed. R. Evid. 801(a).
Under this definition, a 911 call may contain multiple statements.
Some statements may qualif y as present-sense impressions, and others may
not. But to apply these definitions, courts must separately analyze the
individual statements.

Appendix B
22a

The Supreme Court required consideration of each individual
statement in Williamson v. United States, 512 U.S. 594 (1994). There the
Court wrestled with the hearsay exception for statements against interest.
See Fed. R. Evid. 804(b)(3). That exception, like the one for present-sense
impressions, applies only to a “statement.” Id. So the Court focused on the
rules’ definition of the term “statement,” holding that it refers to “a single
declaration or remark” rather than “a report or narrative.” Williamson, 512
U.S. at 599 (quoting Webster’s Third New International Dictionary 2229
(1961)). The Supreme Court then considered the principle behind the
statement-against-interest exception, explaining that “reasonable people,
even reasonable people who are not especially honest, tend not to make
self-inculpatory statements unless they believe them to be true.” Id. That
principle does not necessarily apply to every statement in a confession.
The Supreme Court thus held that the statement-against-interest exception
requires courts to separately analyze each statement to determine whether
it is self-inculpatory. Id. at 599–604.
Williamson’s reasoning likewise applies to the hearsay exception for
present-sense impressions. Just as a confession may contain statements that
are self-inculpatory and statements that are not, so too a 911 call may
contain statements that are present-sense impressions and statements that
are not.

2

Appendix B
23a

The majority downplays Williamson, reasoning that the Supreme
Court was considering the hearsay exception for statements against
interest, not present-sense impressions. But the Supreme Court was
applying a definition of “statement” that applies equally to both
exceptions.
The Sixth Circuit has thus observed that “it would make little sense”
to confine Williamson to the hearsay exception for statements against
interest. United States v. Canan, 48 F.3d 954, 960 (6th Cir. 1995). For this
observation, the court reasoned that the Supreme Court was relying on a
definition of “statement” that governed all of the hearsay exceptions in
Rule 804:
Although Williamson defined the term “statement” as it applies
in the context of Rule 804(b)(3) “statements against interest,”
we think that its definition extends to the other hearsa y
exceptions delineated in Rule 804 as well. Accordingly, the term
“statement” must mean “a single declaration or remark” for
purposes of all of the hearsay rules. This determination is
consistent with the idea implicit in Rule 801(a): that there is an
overarching and uniform definition of “statement” applicable
under all of the hearsay rules. Rule 801(a) indicates that its
definition of statement covers Article VIII (Hearsay) of the
Federal Rules of Evidence, entirely. It would make little sense
for the same defined term to have disparate meanings throughout
the various subdivisions of the hearsay rules.
Id. This reasoning applies here, compelling us to use Williamson’s
definition of a “statement” when considering present-sense impressions.
Other courts have also applied the exception for present-sense
impressions to each individual statement rather than collectively to an
3

Appendix B
24a

entire conversation or narrative. For example, the Second Circuit parsed
individual statements in a 911 call:
We conclude that the 911 tape, or at least the portion in which
the caller states that the light-skinned black men in front of the
bar are shooting-the crucial issue in [the petitioner’s] trial-was
not shown by the People to be a report of a present sense
impression and thus did not fall within the exception for that
class of hearsay.
Brown v. Keane, 355 F.3d 82, 89 (2d Cir. 2004). So too did a Maryland
appellate court:
The second [911] call . . . consisted of nine statements by the
declarant. The first was legitimately a Present Sense Impression.
The other eight were not. . . . The remaining eight statements
consisted largely of a question and answer exchange between the
declarant and the officer taking the call, as the declarant narrated
past events in order to bring the officer up to date. “There was a
shooting.” “They’re looking for a gun.” “[I]t was two guys. They
threw it, more like buried it[.]” None of these is remotely a
Present Sense Impression. . . . [The calls at issue] illustrate . . .
how easy it is for a seemingly simple declaration to wander
randomly back and forth between present impression and past
narration.
Morten v. State, 215 A.3d 846, 858 (Md. Ct. Spec. App. 2019).
Until now, our court has never held that a district court can apply a
hearsay exception to an entire conversation. The majority points to United
States v. Allen, where we concluded that the tape of a 911 call was
admissible as a present-sense impression. 235 F.3d 482, 493 (10th Cir.
2000). As the majority points out, the Allen panel didn’t separately discuss
the individual statements. But the defendant had not challenged the
admission of specific statements. The defendant instead argued that the
4

Appendix B
25a

entire call was inadmissible because it was cumulative and the declarant
was biased. See United States v. Allen, No. 99-3236, Appellant’s Opening
Br. at 32–33. We thus had no occasion to separately analyze specific
statements made during the 911 call. And a precedent like Allen cannot be
interpreted to include holdings on issues that were neither raised nor
decided. E.g., MODOC Lassen Indian Hous. Auth. v. U.S. Dep’t of Hous. &
Urban Dev., 881 F.3d 1181, 1191 (10th Cir. 2017). The majority’s
approach is thus unsupported by precedent.
This approach appears difficult to apply. Under the majority’s
approach, it is unclear when a district court should analyze an entire 911
call as a single statement or separately analyze each individual statement. I
fear that district courts will now struggle with how to apply the
straightforward definition of “statement” set forth in the Federal Rules of
Evidence.
Rather than foist this struggle onto district courts, I would consider
each challenged statement in the 911 call to determine whether the district
court erred in finding a present-sense impression.
2.

A separate reliability inquiry is not required.
The majority discusses the caller’s reliability, considering factors not

directly related to contemporaneousness. For example, the majority notes
that the caller was not anonymous and that “the circumstances of the call
. . . created a ‘disincentive for making false allegations.’” Majority Op. at
5

Appendix B
26a

11 (quoting United States v. Gaines, 918 F.3d 793, 806 (10th Cir. 2019)
(Tymkovich, C.J., dissenting)); see also Majority Op. at 9 (noting “the 911
caller’s status as a disinterested observer”).
In my view, however, the exception for present-sense impressions
contains no separate requirement of reliability. The hearsay exceptions
themselves are designed to assure reliability. See Fed. R. Evid. 803
advisory committee’s note to 1972 proposed rules (“The present rule
proceeds upon the theory that under appropriate circumstances a hearsay
statement may possess circumstantial guarantees of trustworthiness
sufficient to justify nonproduction of the declarant in person at the trial
even though he may be available.”). For example, the exception for
present-sense impressions requires temporal proximity, which itself serves
as a proxy for reliability. See United States v. Green, 556 F.3d 151, 155–
56 (3d Cir. 2009) (observing that contemporaneousness “is the effective
proxy for the reliability of the substance of the declaration” under the
exception for present-sense impressions); see also United States v. Ruiz,
249 F.3d 643, 647 (7th Cir. 2001) (“[C]ourts sometimes focus on the
corroboration or the lack thereof in admitting or excluding present sense
impressions, but the truth is that the rule does not condition admissibility
on the availability of corroboration.” (citation omitted)). So I respectfully
disagree with the majority’s view that a caller’s reliability bears on

6

Appendix B
27a

admissibility under the exception for present-sense impressions. 1 See
Edward J. Imwinkelried, The Need to Resurrect the Present Sense
Impression Hearsay Exception: A Relapse in Hearsay Policy, 52 How. L.J.
319, 350 (2009) (explaining that unlike some state statutes, the federal
present-sense exception “does not purport to grant the judge discretionary
authority to exclude otherwise admissible statements when ‘circumstances
indicate lack of trustworthiness’”).
3.

The district court did not abuse its discretion in admitting the
statements in the 911 call as present-sense impressions.
Though I respectfully disagree with the majority’s approach, I agree

with its outcome because the district court reasonably treated the
challenged statements as sufficiently contemporaneous to constitute
present-sense impressions.
As the majority explains, we review the district court’s decision
under the abuse-of-discretion standard. This standard is ordinarily
deferential, Marczak v. Greene, 971 F.2d 510, 516 (10th Cir. 1992), and we

Some of the majority’s authorities do not involve the exception for a
present-sense impression, and I would not apply these authorities. See,
e.g., United States v. Gaines, 918 F.3d 793, 806 (10th Cir. 2019)
(Tymkovich, C.J., dissenting) (invoking the reliability of an anonymous tip
as grounds for concluding that an investigative stop was supported by the
reasonable suspicion required by the Fourth Amendment); First State Bank
of Denton v. Maryland Cas. Co., 918 F.2d 38, 42 (5th Cir. 1990)
(discussing “the catch-all exception to rule 803,” Fed. R. Evid. 803(24),
and stating that “the core inquiry” under this exception “concerns the
reliability of the declarant” (quoting United States v. White, 611 F.2d 531,
538 n.7 (5th Cir. 1980))).
1

7

Appendix B
28a

review with “heightened” deference here because of “the fact-specific
nature of a hearsay inquiry.” United States v. Pursley, 577 F.3d 1204, 1220
(10th Cir. 2009) (citing United States v. Trujillo, 136 F.3d 1388 (10th Cir.
1998)). Discretion means that the district court has a “range of choice, and
. . . its decision will not be disturbed as long as it stays within that range
and is not influenced by any mistake of law.” Betty K Agencies, Ltd. v. M/V
Monada, 432 F.3d 1333, 1337 (11th Cir. 2005) (quoting Guideone Elite
Ins. Co. v. Old Cutler Presbyterian Church, Inc., 420 F.3d 1317, 1324
(11th Cir. 2005)). So when we review a district court’s ruling under the
abuse-of-discretion standard, we are ultimately deciding whether the
district court has made a reasonable choice among the alternative
outcomes. Gasperini v. Center for Humanities, Inc., 149 F.3d 137, 141 (2d
Cir. 1998).
We elsewhere apply the abuse-of-discretion standard by recognizing
the permissibility of various outcomes. For example, when confronted with
challenges to the substantive reasonableness of a sentence, we’ve often
recognized that many sentences are typically reasonable. See, e.g., Gall v.
United States, 522 U.S. 38, 51 (2007). We thus find an abuse of discretion
only when the district court chooses a sentence outside the range of
reasonable sentences. E.g., United States v. DeRusse, 859 F.3d 1232, 1236
(10th Cir. 2017).

8

Appendix B
29a

So it is here when we review the admission of present-sense
impressions. In this area, the test lacks bright-line distinctions. See United
States v. Green, 556 F.3d 151, 156 (3d Cir. 2009) (“[C]ourts have not
adopted any bright-line rule as to when a lapse of time becomes too
lengthy to preclude Rule 803(1)’s application.”); see also United States v.
Blakey, 607 F.2d 779, 785 (7th Cir. 1979) (“There is no Per se rule
indicating what time interval is too long under Rule 803(1).”), overruled
on other grounds by United States v. Harty, 930 F.2d 1257, 1263 (7th Cir.
1991). Some statements are so obviously contemporaneous that no one
would question whether they constitute present-sense impressions. For
example, consider a 911 call in which a witness reports a robbery in
progress. This report would obviously be considered contemporaneous. On
the other hand, some statements are so clearly separated in time from the
incident that no one would regard the statements as present-sense
impressions. For example, a 911 call detailing the events of a robbery a
week earlier would obviously not qualify as contemporaneous.
Between these polar extremes is a large gray area: statements in 911
calls that could reasonably be regarded as either contemporaneous or noncontemporaneous. For these statements, district courts have broad
discretion in determining admissibility. See Balentine v. State, 707 P.2d
922, 926 (Alaska Ct. App. 1985) (observing that the Alaska version of the

9

Appendix B
30a

rule for present-sense impressions “leaves much room for subjective
application”).
All of the challenged statements fall within this gray area, where
district courts enjoy considerable discretion. Some of the disputed
statements reported ongoing observations, some recalled events that had
occurred several minutes earlier, and some answered specific questions
from the 911 operator. For each statement, the district court could
reasonably conclude that the caller was
•

describing or explaining an event

•

while or immediately after the caller saw the event

•

sufficiently close in time to the event to qualif y as a presentsense impression.

See Majority Op. at 11. Given the reasonableness of these conclusions, I
would hold that the district court did not abuse its discretion in treating
each challenged statement as a present-sense impression.

10

AO 245B (Rev. 02/18)

Judgment in a Criminal Case

Appendix C
31a

UNITED STATES DISTRICT COURT
UNITED STATES OF AMERICA

v.
1. DANIEL LOVATO

District of Colorado
)
JUDGMENT IN A CRIMINAL CASE
)
)
)
Case Number:
18-cr-00213-RM
)
)
USM Number:
44753-013
)
)
Laura Hayes Suelau and Natalie Girard Stricklin
)
Defendant’s Attorney

THE DEFENDANT:
‫ ܆‬pleaded guilty to count(s)
‫ ܆‬pleaded nolo contendere to count(s)
which was accepted by the court.
‫ ܈‬was found guilty on count(s) 1 of the Superseding Indictment
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C. § 922(g)(1)

Nature of Offense
Felon in Possession of a Firearm and Ammunition

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
‫ ܈‬The defendant has been found not guilty on count(s)

7

Offense Ended
03/03/2018

Count
1(merged)

of this judgment. The sentence is imposed pursuant to

3 of the Superseding Indictment

‫ ܈‬Count(s) 1 and 2 were merged at sentencing and the separate conviction of Count 2 was vacated; Count 4 was dismissed on Govt. motion.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
November 29, 2018

Date of Imposition of Judgment

Signature
aturee of Judge
Judge

Raymond P. Moore, United States District Judge
Name and Title of Judge

December 4, 2018
Date

404

Appendix C
32a

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment — Page

DANIEL LOVATO
18-cr-00213-RM

2

of

7

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of: one hundred
(100) months as to Count 1

‫܆‬

The court makes the following recommendations to the Bureau of Prisons:

‫܈‬

The defendant is remanded to the custody of the United States Marshal.

‫܆‬

The defendant shall surrender to the United States Marshal for this district:

‫܆‬

‫܆‬

at

‫܆‬

as notified by the United States Marshal.

‫܆‬

p.m.

a.m. ‫܆‬

on

.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
‫܆‬

before 2 p.m. on

.

‫܆‬

as notified by the United States Marshal.

‫܆‬

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

405

Appendix C
33a

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment — Page

DANIEL LOVATO
18-cr-00213-RM

3

of

7

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of: three (3) years

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
‫ ܆‬The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
‫ ܆‬You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
‫ ܈‬You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

406

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

DANIEL LOVATO
18-cr-00213-RM

Appendix C
34a
Judgment — Page

4

of

7

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

407

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

DANIEL LOVATO
18-cr-00213-RM

Appendix C
35a
Judgment — Page

5

of

7

SPECIAL CONDITIONS OF SUPERVISION
1.
2.
3.
4.

5.



You must participate in and successfully complete a program of testing and/or treatment for substance abuse, as approved by the
probation officer, until such time as you are released from the program by the probation officer. You must abstain from the use of
alcohol or other intoxicants during the course of treatment and must pay the cost of treatment as directed by the probation officer.
You must participate in and successfully complete a program of mental health treatment, as approved by the probation officer, until
such time as you are released from the program by the probation officer. You must pay the cost of treatment as directed by the
probation officer.
You must remain medication compliant and must take all medications that are prescribed by your treating psychiatrist. You must
cooperate with random blood tests as requested by your treating psychiatrist and/or supervising probation officer to ensure that a
therapeutic level of your prescribed medications is maintained.
You must submit your person, property, house, residence, vehicle, papers, computers (as defined in 18 U.S.C. § 1030(e)(1)), other
electronic communications or data storage devices or media, or office, to a search conducted by a United States probation officer.
Failure to submit to search may be grounds for revocation of release. You must warn any other occupants that the premises may be
subject to searches pursuant to this condition. An officer may conduct a search pursuant to this condition only when reasonable
suspicion exists that you have violated a condition of your supervision and that the areas to be searched contain evidence of this
violation. Any search must be conducted at a reasonable time and in a reasonable manner.
You must not associate with or have contact with any gang members and must not participate in gang activity, to include displaying
gang paraphernalia.



408

Appendix C
36a

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment — Page

DANIEL LOVATO
18-cr-00213-RM

6

of

7

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on the following page.
Assessment

TOTALS

$ 100.00

JVTA Assessment*

$ 0.00

‫ ܆‬The determination of restitution is deferred until
after such determination.

Fine

Restitution

$ 0.00

$ 0.00

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

‫ ܆‬The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

Total Loss**

TOTALS

$

‫ ܆‬Restitution amount ordered pursuant to plea agreement

Restitution Ordered

Priority or Percentage

$
$

‫ ܆‬The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the following page may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
‫ ܆‬The court determined that the defendant does not have the ability to pay interest and it is ordered that:
‫ ܆‬the interest requirement is waived for the
‫ ܆‬the interest requirement for the

‫܆‬

fine

‫ ܆‬fine

‫ ܆‬restitution.

‫ ܆‬restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.



409

Appendix C
37a

AO 245B (Rev. 02/18) Judgment in Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment — Page

DANIEL LOVATO
18-cr-00213-RM

7

of

7

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

‫ ܆‬Lump sum payment of $
‫܆‬
‫܆‬

not later than
in accordance with ‫܆‬

due immediately, balance due
C,

‫܆‬

D,

, or
‫ ܆‬E, or ‫ ܆‬F below; or

B

‫ ܈‬Payment to begin immediately (may be combined with ‫܆‬

C

‫ ܆‬Payment in equal

D

‫ ܆‬Payment in equal

C,

‫ ܆‬D, or

‫ ܆‬F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

‫ ܆‬Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

‫ ܆‬Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
‫܆‬

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

‫܆‬

The defendant shall pay the cost of prosecution.

‫܆‬

The defendant shall pay the following court cost(s):

‫܈‬

The defendant shall forfeit the defendant’s interest in the following property to the United States:
Browning Arms, Buck Mark, .22 caliber pistol, s/n 515MW05825; Ammunition in said firearm; and Thirty-two (32) rounds of
ammunition found in defendant’s pocket.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

410

Appendix D
38a

U.S. Code Provisions
28 U.S.C. § 991. United States Sentencing Commission; establishment and
purposes.
(a) There is established as an independent commission in the judicial branch of
the United States a United States Sentencing Commission which shall consist of
seven voting members and one nonvoting member. The President, after
consultation with representatives of judges, prosecuting attorneys, defense
attorneys, law enforcement officials, senior citizens, victims of crime, and others
interested in the criminal justice process, shall appoint the voting members of the
Commission, by and with the advice and consent of the Senate, one of whom shall
be appointed, by and with the advice and consent of the Senate, as the Chair and
three of whom shall be designated by the President as Vice Chairs. At least 3 of
the members shall be Federal judges selected after considering a list of six judges
recommended to the President by the Judicial Conference of the United States.
Not more than four of the members of the Commission shall be members of the
same political party, and of the three Vice Chairs, no more than two shall be
members of the same political party. The Attorney General, or the Attorney
General’s designee, shall be an ex officio, nonvoting member of the Commission.
The Chair, Vice Chairs, and members of the Commission shall be subject to
removal from the Commission by the President only for neglect of duty or
malfeasance in office or for other good cause shown.
(b) The purposes of the United States Sentencing Commission are to—
(1) establish sentencing policies and practices for the Federal criminal
justice system that—
(A) assure the meeting of the purposes of sentencing as set forth in
section 3553(a)(2) of title 18, United States Code;
(B) provide certainty and fairness in meeting the purposes of
sentencing, avoiding unwarranted sentencing disparities among
defendants with similar records who have been found guilty of
similar criminal conduct while maintaining sufficient flexibility to
permit individualized sentences when warranted by mitigating or
aggravating factors not taken into account in the establishment of
general sentencing practices; and
(C) reflect, to the extent practicable, advancement in knowledge of
human behavior as it relates to the criminal justice process; and

Appendix D
39a

(2) develop means of measuring the degree to which the sentencing, penal,
and correctional practices are effective in meeting the purposes of
sentencing as set forth in section 3553(a)(2) of title 18, United States Code.

Appendix D
40a

28 U.S.C. § 994. Duties of the Commission.
(a) The Commission, by affirmative vote of at least four members of the
Commission, and pursuant to its rules and regulations and consistent with all
pertinent provisions of any Federal statute shall promulgate and distribute to all
courts of the United States and to the United States Probation System—
(1) guidelines, as described in this section, for use of a sentencing court in
determining the sentence to be imposed in a criminal case, including—
(A) a determination whether to impose a sentence to probation, a fine,
or a term of imprisonment;
(B) a determination as to the appropriate amount of a fine or the
appropriate length of a term of probation or a term of imprisonment;
(C) a determination whether a sentence to a term of imprisonment
should include a requirement that the defendant be placed on a term
of supervised release after imprisonment, and, if so, the appropriate
length of such a term;
(D) a determination whether multiple sentences to terms of
imprisonment should be ordered to run concurrently or
consecutively; and
(E) a determination under paragraphs (6) and (11) of section 3563(b)
of title 18;
(2) general policy statements regarding application of the guidelines or any
other aspect of sentencing or sentence implementation that in the view of
the Commission would further the purposes set forth in section 3553(a)(2)
of title 18, United States Code, including the appropriate use of—
(A) the sanctions set forth in sections 3554, 3555, and 3556 of title 18;
(B) the conditions of probation and supervised release set forth in
sections 3563(b) and 3583(d) of title 18;
(C) the sentence modification provisions set forth in sections 3563(c),
3564, 3573, and 3582(c) of title 18;
(D) the fine imposition provisions set forth in section 3572 of title 18;

Appendix D
41a

(E) the authority granted under rule 11(e)(2) of the Federal Rules of
Criminal Procedure to accept or reject a plea agreement entered into
pursuant to rule 11(e)(1); and
(F) the temporary release provisions set forth in section 3622 of title
18, and the prerelease custody provisions set forth in section 3624(c)
of title 18; and

(b)

(3) guidelines or general policy statements regarding the appropriate use of
the provisions for revocation of probation set forth in section 3565 of title
18, and the provisions for modification of the term or conditions of
supervised release and revocation of supervised release set forth in section
3583(e) of title 18.
(1) The Commission, in the guidelines promulgated pursuant to subsection
(a)(1), shall, for each category of offense involving each category of
defendant, establish a sentencing range that is consistent with all pertinent
provisions of title 18, United States Code.
(2) If a sentence specified by the guidelines includes a term of
imprisonment, the maximum of the range established for such a term shall
not exceed the minimum of that range by more than the greater of 25
percent or 6 months, except that, if the minimum term of the range is 30
years or more, the maximum may be life imprisonment.

(c) The Commission, in establishing categories of offenses for use in the guidelines
and policy statements governing the imposition of sentences of probation, a fine,
or imprisonment, governing the imposition of other authorized sanctions,
governing the size of a fine or the length of a term of probation, imprisonment, or
supervised release, and governing the conditions of probation, supervised release,
or imprisonment, shall consider whether the following matters, among others,
have any relevance to the nature, extent, place of service, or other incidents of an
appropriate sentence, and shall take them into account only to the extent that
they do have relevance—
(1) the grade of the offense;
(2) the circumstances under which the offense was committed which
mitigate or aggravate the seriousness of the offense;
(3) the nature and degree of the harm caused by the offense, including
whether it involved property, irreplaceable property, a person, a number of
persons, or a breach of public trust;

Appendix D
42a

(4) the community view of the gravity of the offense;
(5) the public concern generated by the offense;
(6) the deterrent effect a particular sentence may have on the commission
of the offense by others; and
(7) the current incidence of the offense in the community and in the Nation
as a whole.
(d) The Commission in establishing categories of defendants for use in the
guidelines and policy statements governing the imposition of sentences of
probation, a fine, or imprisonment, governing the imposition of other authorized
sanctions, governing the size of a fine or the length of a term of probation,
imprisonment, or supervised release, and governing the conditions of probation,
supervised release, or imprisonment, shall consider whether the following
matters, among others, with respect to a defendant, have any relevance to the
nature, extent, place of service, or other incidents of an appropriate sentence, and
shall take them into account only to the extent that they do have relevance—
(1) age;
(2) education;
(3) vocational skills;
(4) mental and emotional condition to the extent that such condition
mitigates the defendant’s culpability or to the extent that such condition is
otherwise plainly relevant;
(5) physical condition, including drug dependence;
(6) previous employment record;
(7) family ties and responsibilities;
(8) community ties;
(9) role in the offense;
(10)

criminal history; and

(11)

degree of dependence upon criminal activity for a livelihood.

Appendix D
43a

The Commission shall assure that the guidelines and policy statements are
entirely neutral as to the race, sex, national origin, creed, and socioeconomic
status of offenders.
(e) The Commission shall assure that the guidelines and policy statements, in
recommending a term of imprisonment or length of a term of imprisonment, reflect
the general inappropriateness of considering the education, vocational skills,
employment record, family ties and responsibilities, and community ties of the
defendant.
(f) The Commission, in promulgating guidelines pursuant to subsection (a)(1),
shall promote the purposes set forth in section 991(b)(1), with particular attention
to the requirements of subsection 991(b)(1)(B) for providing certainty and fairness
in sentencing and reducing unwarranted sentence disparities.
(g) The Commission, in promulgating guidelines pursuant to subsection (a)(1) to
meet the purposes of sentencing as set forth in section 3553(a)(2) of title 18, United
States Code, shall take into account the nature and capacity of the penal,
correctional, and other facilities and services available, and shall make
recommendations concerning any change or expansion in the nature or capacity
of such facilities and services that might become necessary as a result of the
guidelines promulgated pursuant to the provisions of this chapter. The sentencing
guidelines prescribed under this chapter shall be formulated to minimize the
likelihood that the Federal prison population will exceed the capacity of the
Federal prisons, as determined by the Commission.
(h) The Commission shall assure that the guidelines specify a sentence to a term
of imprisonment at or near the maximum term authorized for categories of
defendants in which the defendant is eighteen years old or older and—
(1) has been convicted of a felony that is—
(A) a crime of violence; or
(B) an offense described in section 401 of the Controlled Substances
Act (21 U.S.C. 841), sections 1002(a), 1005, and 1009 of the
Controlled Substances Import and Export Act (21 U.S.C. 952(a), 955,
and 959), and chapter 705 of title 46; and
(2) has previously been convicted of two or more prior felonies, each of
which is—
(A) a crime of violence; or

Appendix D
44a

(B) an offense described in section 401 of the Controlled Substances
Act (21 U.S.C. 841), sections 1002(a), 1005, and 1009 of the
Controlled Substances Import and Export Act (21 U.S.C. 952(a), 955,
and 959), and chapter 705 of title 46.
(i) The Commission shall assure that the guidelines specify a sentence to a
substantial term of imprisonment for categories of defendants in which the
defendant—
(1) has a history of two or more prior Federal, State, or local felony
convictions for offenses committed on different occasions;
(2) committed the offense as part of a pattern of criminal conduct from
which the defendant derived a substantial portion of the defendant’s
income;
(3) committed the offense in furtherance of a conspiracy with three or more
persons engaging in a pattern of racketeering activity in which the
defendant participated in a managerial or supervisory capacity;
(4) committed a crime of violence that constitutes a felony while on release
pending trial, sentence, or appeal from a Federal, State, or local felony for
which he was ultimately convicted; or
(5) committed a felony that is set forth in section 401 or 1010 of the
Comprehensive Drug Abuse Prevention and Control Act of 1970 (21 U.S.C.
841 and 960), and that involved trafficking in a substantial quantity of a
controlled substance.
(j) The Commission shall insure that the guidelines reflect the general
appropriateness of imposing a sentence other than imprisonment in cases in
which the defendant is a first offender who has not been convicted of a crime of
violence or an otherwise serious offense, and the general appropriateness of
imposing a term of imprisonment on a person convicted of a crime of violence that
results in serious bodily injury.
(k) The Commission shall insure that the guidelines reflect the inappropriateness
of imposing a sentence to a term of imprisonment for the purpose of rehabilitating
the defendant or providing the defendant with needed educational or vocational
training, medical care, or other correctional treatment.
(l) The Commission shall insure that the guidelines promulgated pursuant to
subsection (a)(1) reflect—

Appendix D
45a

(1) the appropriateness of imposing an incremental penalty for each offense
in a case in which a defendant is convicted of—
(A) multiple offenses committed in the same course of conduct that
result in the exercise of ancillary jurisdiction over one or more of the
offenses; and
(B) multiple offenses committed at different times, including those
cases in which the subsequent offense is a violation of section 3146
(penalty for failure to appear) or is committed while the person is
released pursuant to the provisions of section 3147 (penalty for an
offense committed while on release) of title 18; and
(2) the general inappropriateness of imposing consecutive terms of
imprisonment for an offense of conspiring to commit an offense or soliciting
commission of an offense and for an offense that was the sole object of the
conspiracy or solicitation.
(m)
The Commission shall insure that the guidelines reflect the fact that,
in many cases, current sentences do not accurately reflect the seriousness of the
offense. This will require that, as a starting point in its development of the initial
sets of guidelines for particular categories of cases, the Commission ascertain the
average sentences imposed in such categories of cases prior to the creation of the
Commission, and in cases involving sentences to terms of imprisonment, the
length of such terms actually served. The Commission shall not be bound by such
average sentences, and shall independently develop a sentencing range that is
consistent with the purposes of sentencing described in section 3553(a)(2) of title
18, United States Code.
(n) The Commission shall assure that the guidelines reflect the general
appropriateness of imposing a lower sentence than would otherwise be imposed,
including a sentence that is lower than that established by statute as a minimum
sentence, to take into account a defendant’s substantial assistance in the
investigation or prosecution of another person who has committed an offense.
(o) The Commission periodically shall review and revise, in consideration of
comments and data coming to its attention, the guidelines promulgated pursuant
to the provisions of this section. In fulfilling its duties and in exercising its powers,
the Commission shall consult with authorities on, and individual and institutional
representatives of, various aspects of the Federal criminal justice system. The
United States Probation System, the Bureau of Prisons, the Judicial Conference
of the United States, the Criminal Division of the United States Department of
Justice, and a representative of the Federal Public Defenders shall submit to the

Appendix D
46a

Commission any observations, comments, or questions pertinent to the work of
the Commission whenever they believe such communication would be useful, and
shall, at least annually, submit to the Commission a written report commenting
on the operation of the Commission’s guidelines, suggesting changes in the
guidelines that appear to be warranted, and otherwise assessing the Commission’s
work.
(p) The Commission, at or after the beginning of a regular session of Congress, but
not later than the first day of May, may promulgate under subsection (a) of this
section and submit to Congress amendments to the guidelines and modifications
to previously submitted amendments that have not taken effect, including
modifications to the effective dates of such amendments. Such an amendment or
modification shall be accompanied by a statement of the reasons therefor and shall
take effect on a date specified by the Commission, which shall be no earlier than
180 days after being so submitted and no later than the first day of November of
the calendar year in which the amendment or modification is submitted, except to
the extent that the effective date is revised or the amendment is otherwise
modified or disapproved by Act of Congress.
(q) The Commission and the Bureau of Prisons shall submit to Congress an
analysis and recommendations concerning maximum utilization of resources to
deal effectively with the Federal prison population. Such report shall be based
upon consideration of a variety of alternatives, including—
(1) modernization of existing facilities;
(2) inmate classification and periodic review of such classification for use in
placing inmates in the least restrictive facility necessary to ensure
adequate security; and
(3) use of existing Federal facilities, such as those currently within military
jurisdiction.
(r) The Commission, not later than two years after the initial set of sentencing
guidelines promulgated under subsection (a) goes into effect, and thereafter
whenever it finds it advisable, shall recommend to the Congress that it raise or
lower the grades, or otherwise modify the maximum penalties, of those offenses
for which such an adjustment appears appropriate.
(s) The Commission shall give due consideration to any petition filed by a
defendant requesting modification of the guidelines utilized in the sentencing of
such defendant, on the basis of changed circumstances unrelated to the defendant,
including changes in—

Appendix D
47a

(1) the community view of the gravity of the offense;
(2) the public concern generated by the offense; and
(3) the deterrent effect particular sentences may have on the commission of
the offense by others.
(t) The Commission, in promulgating general policy statements regarding the
sentencing modification provisions in section 3582(c)(1)(A) of title 18, shall
describe what should be considered extraordinary and compelling reasons for
sentence reduction, including the criteria to be applied and a list of specific
examples. Rehabilitation of the defendant alone shall not be considered an
extraordinary and compelling reason.
(u) If the Commission reduces the term of imprisonment recommended in the
guidelines applicable to a particular offense or category of offenses, it shall specify
in what circumstances and by what amount the sentences of prisoners serving
terms of imprisonment for the offense may be reduced.
(v) The Commission shall ensure that the general policy statements promulgated
pursuant to subsection (a)(2) include a policy limiting consecutive terms of
imprisonment for an offense involving a violation of a general prohibition and for
an offense involving a violation of a specific prohibition encompassed within the
general prohibition.
(w)
(1) The Chief Judge of each district court shall ensure that, within 30 days
following entry of judgment in every criminal case, the sentencing court
submits to the Commission, in a format approved and required by the
Commission, a written report of the sentence, the offense for which it is
imposed, the age, race, sex of the offender, and information regarding
factors made relevant by the guidelines. The report shall also include—
(A) the judgment and commitment order;
(B) the written statement of reasons for the sentence imposed (which
shall include the reason for any departure from the otherwise
applicable guideline range and which shall be stated on the written
statement of reasons form issued by the Judicial Conference and
approved by the United States Sentencing Commission);
(C) any plea agreement;

Appendix D
48a

(D) the indictment or other charging document;
(E) the presentence report; and
(F) any other information as the Commission finds appropriate.
The information referred to in subparagraphs (A) through (F) shall be
submitted by the sentencing court in a format approved and required by the
Commission.
(2) The Commission shall, upon request, make available to the House and
Senate Committees on the Judiciary, the written reports and all underlying
records accompanying those reports described in this section, as well as
other records received from courts.
(3) The Commission shall submit to Congress at least annually an analysis
of these documents, any recommendations for legislation that the
Commission concludes is warranted by that analysis, and an accounting of
those districts that the Commission believes have not submitted the
appropriate information and documents required by this section.
(4) The Commission shall make available to the Attorney General, upon
request, such data files as the Commission itself may assemble or maintain
in electronic form as a result of the information submitted under paragraph
(1). Such data files shall be made available in electronic form and shall
include all data fields re-quested, including the identity of the sentencing
judge.
(x) The provisions of section 553 of title 5, relating to publication in the Federal
Register and public hearing procedure, shall apply to the promulgation of
guidelines pursuant to this section.
(y) The Commission, in promulgating guidelines pursuant to subsection (a)(1),
may include, as a component of a fine, the expected costs to the Government of
any imprisonment, supervised release, or probation sentence that is ordered.

Appendix E
49a

2018 Sentencing Guideline Provisions
§1B1.7. Significance of Commentary
The Commentary that accompanies the guideline sections may serve a
number of purposes. First, it may interpret the guideline or explain how it is
to be applied. Failure to follow such commentary could constitute an incorrect
application of the guidelines, subjecting the sentence to possible reversal on
appeal. See 18 U.S.C. § 3742. Second, the commentary may suggest
circumstances which, in the view of the Commission, may warrant departure
from the guidelines. Such commentary is to be treated as the legal equivalent
of a policy statement. Finally, the commentary may provide background
information, including factors considered in promulgating the guideline or
reasons underlying promulgation of the guideline. As with a policy
statement, such commentary may provide guidance in assessing the
reasonableness of any departure from the guidelines.
Commentary
Portions of this document not labeled as guidelines or commentary also express the
policy of the Commission or provide guidance as to the interpretation and application
of the guidelines. These are to be construed as commentary and thus have the force
of policy statements.
“[C]ommentary in the Guidelines Manual that interprets or explains a guideline is
authoritative unless it violates the Constitution or a federal statute, or is inconsistent
with, or a plainly erroneous reading of, that guideline.” Stinson v. United States, 508
U.S. 36, 38 (1993).
Historical Note: Effective November 1, 1987. Amended effective November 1, 1993
(amendment 498).

Appendix E
50a

§2K2.1. Unlawful Receipt, Possession, or Transportation of Firearms or
Ammunition; Prohibited Transactions Involving Firearms or Ammunition
(a)

Base Offense Level (Apply the Greatest):
(1)
26, if (A) the offense involved a (i) semiautomatic firearm that is
capable of accepting a large capacity magazine; or (ii) firearm that is
described in 26 U.S.C. § 5845(a); and (B) the defendant committed any
part of the instant offense subsequent to sustaining at least two felony
convictions of either a crime of violence or a controlled substance offense;
(2)
24, if the defendant committed any part of the instant offense
subsequent to sustaining at least two felony convictions of either a crime
of violence or a controlled substance offense;
(3)
22, if (A) the offense involved a (i) semiautomatic firearm that is
capable of accepting a large capacity magazine; or (ii) firearm that is
described in 26 U.S.C. § 5845(a); and (B) the defendant committed any
part of the instant offense subsequent to sustaining one felony
conviction of either a crime of violence or a controlled substance offense;
(4)

20, if —
(A)
the defendant committed any part of the instant offense
subsequent to sustaining one felony conviction of either a crime
of violence or a controlled substance offense; or
(B)
the (i) offense involved a (I) semiautomatic firearm that is
capable of accepting a large capacity magazine; or (II) firearm
that is described in 26 U.S.C. § 5845(a); and (ii) defendant (I) was
a prohibited person at the time the defendant committed the
instant offense; (II) is convicted under 18 U.S.C. § 922(d); or (III)
is convicted under 18 U.S.C. § 922(a)(6) or § 924(a)(1)(A) and
committed the offense with knowledge, intent, or reason to
believe that the offense would result in the transfer of a firearm
or ammunition to a prohibited person;

(5)
18, if the offense involved a firearm described in 26 U.S.C. §
5845(a);
(6)
14, if the defendant (A) was a prohibited person at the time the
defendant committed the instant offense; (B) is convicted under 18
U.S.C. § 922(d); or (C) is convicted under 18 U.S.C. § 922(a)(6) or §
924(a)(1)(A) and committed the offense with knowledge, intent, or
reason to believe that the offense would result in the transfer of a
firearm or ammunition to a prohibited person;

Appendix E
51a

(7)

12, except as provided below; or

(8)
6, if the defendant is convicted under 18 U.S.C. § 922(c), (e), (f),
(m), (s), (t), or (x)(1), or 18 U.S.C. § 1715.
(b)

Specific Offense Characteristics
(1)

If the offense involved three or more firearms, increase as follows:
Number of Firearms

Increase in Level

(A)

3-7

add 2

(B)

8-24

add 4

(C)

25-99

add 6

(D)

100-199

add 8

(E)

200 or more

add 10.

(2)
If the defendant, other than a defendant subject to subsection
(a)(1), (a)(2), (a)(3), (a)(4), or (a)(5), possessed all ammunition and
firearms solely for lawful sporting purposes or collection, and did not
unlawfully discharge or otherwise unlawfully use such firearms or
ammunition, decrease the offense level determined above to level 6.
(3)

If the offense involved—
(A)
a destructive device that is a portable rocket, a missile, or
a device for use in launching a portable rocket or a missile,
increase by 15 levels; or
(B)
a destructive device other than a destructive device
referred to in subdivision (A), increase by 2 levels.

(4) If any firearm (A) was stolen, increase by 2 levels; or (B) had an
altered or obliterated serial number, increase by 4 levels.
The cumulative offense level determined from the application of
subsections (b)(1) through (b)(4) may not exceed level 29, except if
subsection (b)(3)(A) applies.
(5) If the defendant engaged in the trafficking of firearms, increase by 4
levels.

Appendix E
52a

(6) If the defendant—
(A) possessed any firearm or ammunition while leaving or
attempting to leave the United States, or possessed or transferred
any firearm or ammunition with knowledge, intent, or reason to
believe that it would be transported out of the United States; or
(B) used or possessed any firearm or ammunition in connection
with another felony offense; or possessed or transferred any
firearm or ammunition with knowledge, intent, or reason to
believe that it would be used or possessed in connection with
another felony offense,
increase by 4 levels. If the resulting offense level is less than level
18, increase to level 18.
(7) If a recordkeeping offense reflected an effort to conceal a substantive
offense involving firearms or ammunition, increase to the offense level
for the substantive offense.
(c) Cross Reference
(1) If the defendant used or possessed any firearm or ammunition cited
in the offense of conviction in connection with the commission or
attempted commission of another offense, or possessed or transferred a
firearm or ammunition cited in the offense of conviction with knowledge
or intent that it would be used or possessed in connection with another
offense, apply—
(A) §2X1.1 (Attempt, Solicitation, or Conspiracy) in respect to that
other offense, if the resulting offense level is greater than that
determined above; or
(B) if death resulted, the most analogous offense guideline from
Chapter Two, Part A, Subpart 1 (Homicide), if the resulting
offense level is greater than that determined above.
Commentary
Statutory Provisions: 18 U.S.C. §§ 922(a)–(p), (r)–(w), (x)(1), 924(a), (b), (e)–(i), (k)–
(o), 1715, 2332g; 26 U.S.C. § 5861(a)–(l). For additional statutory provisions, see
Appendix A (Statutory Index).
Application Notes:
1.

Definitions.— For purposes of this guideline:
"Ammunition" has the meaning given that term in 18 U.S.C. § 921(a)(17)(A).

Appendix E
53a

"Controlled substance offense" has the meaning given that term in §4B1.2(b)
and Application Note 1 of the Commentary to §4B1.2 (Definitions of Terms
Used in Section 4B1.1).
"Crime of violence" has the meaning given that term in §4B1.2(a) and
Application Note 1 of the Commentary to §4B1.2.
"Destructive device" has the meaning given that term in 26 U.S.C. § 5845(f).
"Felony conviction" means a prior adult federal or state conviction for an
offense punishable by death or imprisonment for a term exceeding one year,
regardless of whether such offense is specifically designated as a felony and
regardless of the actual sentence imposed. A conviction for an offense
committed at age eighteen years or older is an adult conviction. A conviction
for an offense committed prior to age eighteen years is an adult conviction if it
is classified as an adult conviction under the laws of the jurisdiction in which
the defendant was convicted (e.g., a federal conviction for an offense committed
prior to the defendant's eighteenth birthday is an adult conviction if the
defendant was expressly proceeded against as an adult).
"Firearm" has the meaning given that term in 18 U.S.C. § 921(a)(3).
Semiautomatic Firearm That Is Capable of Accepting a Large Capacity
2.
Magazine.—For purposes of subsections (a)(1), (a)(3), and (a)(4), a "semiautomatic
firearm that is capable of accepting a large capacity magazine" means a
semiautomatic firearm that has the ability to fire many rounds without reloading
because at the time of the offense (A) the firearm had attached to it a magazine or
similar device that could accept more than 15 rounds of ammunition; or (B) a
magazine or similar device that could accept more than 15 rounds of ammunition was
in close proximity to the firearm. This definition does not include a semiautomatic
firearm with an attached tubular device capable of operating only with .22 caliber
rim fire ammunition.
3.
Definition of "Prohibited Person".—For purposes of subsections (a)(4)(B) and
(a)(6), "prohibited person" means any person described in 18 U.S.C. § 922(g) or §
922(n).
4.
Application of Subsection (a)(7).—Subsection (a)(7) includes the interstate
transportation or interstate distribution of firearms, which is frequently committed
in violation of state, local, or other federal law restricting the possession of firearms,
or for some other underlying unlawful purpose. In the unusual case in which it is
established that neither avoidance of state, local, or other federal firearms law, nor
any other underlying unlawful purpose was involved, a reduction in the base offense
level to no lower than level 6 may be warranted to reflect the less serious nature of
the violation.

Appendix E
54a

5.
Application of Subsection (b)(1).—For purposes of calculating the number of
firearms under subsection (b)(1), count only those firearms that were unlawfully
sought to be obtained, unlawfully possessed, or unlawfully distributed, including any
firearm that a defendant obtained or attempted to obtain by making a false statement
to a licensed dealer.
6.
Application of Subsection (b)(2).—Under subsection (b)(2), "lawful sporting
purposes or collection" as determined by the surrounding circumstances, provides for
a reduction to an offense level of 6. Relevant surrounding circumstances include the
number and type of firearms, the amount and type of ammunition, the location and
circumstances of possession and actual use, the nature of the defendant's criminal
history (e.g., prior convictions for offenses involving firearms), and the extent to which
possession was restricted by local law. Note that where the base offense level is
determined under subsections (a)(1)–(a)(5), subsection (b)(2) is not applicable.
7.
Destructive Devices.—A defendant whose offense involves a destructive device
receives both the base offense level from the subsection applicable to a firearm listed
in 26 U.S.C. § 5845(a) (e.g., subsection (a)(1), (a)(3), (a)(4)(B), or (a)(5)), and the
applicable enhancement under subsection (b)(3). Such devices pose a considerably
greater risk to the public welfare than other National Firearms Act weapons.
Offenses involving such devices cover a wide range of offense conduct and involve
different degrees of risk to the public welfare depending on the type of destructive
device involved and the location or manner in which that destructive device was
possessed or transported. For example, a pipe bomb in a populated train station
creates a substantially greater risk to the public welfare, and a substantially greater
risk of death or serious bodily injury, than an incendiary device in an isolated area.
In a case in which the cumulative result of the increased base offense level and the
enhancement under subsection (b)(3) does not adequately capture the seriousness of
the offense because of the type of destructive device involved, the risk to the public
welfare, or the risk of death or serious bodily injury that the destructive device
created, an upward departure may be warranted. See also §§5K2.1 (Death), 5K2.2
(Physical Injury), and 5K2.14 (Public Welfare).
8.

Application of Subsection (b)(4).—
(A)
Interaction with Subsection (a)(7).—If the only offense to which §2K2.1
applies is 18 U.S.C. § 922(i), (j), or (u), or 18 U.S.C. § 924(l) or (m) (offenses
involving a stolen firearm or stolen ammunition) and the base offense level is
determined under subsection (a)(7), do not apply the enhancement in
subsection (b)(4)(A). This is because the base offense level takes into account
that the firearm or ammunition was stolen. However, if the offense involved a

Appendix E
55a

firearm with an altered or obliterated serial number, apply subsection
(b)(4)(B).
Similarly, if the offense to which §2K2.1 applies is 18 U.S.C. § 922(k) or 26
U.S.C. § 5861(g) or (h) (offenses involving an altered or obliterated serial
number) and the base offense level is determined under subsection (a)(7), do
not apply the enhancement in subsection (b)(4)(B). This is because the base
offense level takes into account that the firearm had an altered or obliterated
serial number. However, it the offense involved a stolen firearm or stolen
ammunition, apply subsection (b)(4)(A).
(B)
Knowledge or Reason to Believe.—Subsection (b)(4) applies regardless
of whether the defendant knew or had reason to believe that the firearm was
stolen or had an altered or obliterated serial number.
9.
Application of Subsection (b)(7).—Under subsection (b)(7), if a record-keeping
offense was committed to conceal a substantive firearms or ammunition offense, the
offense level is increased to the offense level for the substantive firearms or
ammunition offense (e.g., if the defendant falsifies a record to conceal the sale of a
firearm to a prohibited person, the offense level is increased to the offense level
applicable to the sale of a firearm to a prohibited person).
10.
Prior Felony Convictions.—For purposes of applying subsection (a)(1), (2), (3),
or (4)(A), use only those felony convictions that receive criminal history points under
§4A1.1(a), (b), or (c). In addition, for purposes of applying subsection (a)(1) and (a)(2),
use only those felony convictions that are counted separately under §4A1.1(a), (b), or
(c). See §4A1.2(a)(2).
Prior felony conviction(s) resulting in an increased base offense level under
subsection (a)(1), (a)(2), (a)(3), (a)(4)(A), (a)(4)(B), or (a)(6) are also counted for
purposes of determining criminal history points pursuant to Chapter Four, Part A
(Criminal History).
11.
Upward Departure Provisions.—An upward departure may be warranted in
any of the following circumstances: (A) the number of firearms substantially exceeded
200; (B) the offense involved multiple National Firearms Act weapons (e.g.,
machineguns, destructive devices), military type assault rifles, non-detectable
("plastic") firearms (defined at 18 U.S.C. § 922(p)); (C) the offense involved large
quantities of armor-piercing ammunition (defined at 18 U.S.C. § 921(a)(17)(B)); or (D)
the offense posed a substantial risk of death or bodily injury to multiple individuals
(see Application Note 7).
12.
Armed Career Criminal.—A defendant who is subject to an enhanced sentence
under the provisions of 18 U.S.C. § 924(e) is an Armed Career Criminal. See §4B1.4.

Appendix E
56a

13.

Application of Subsection (b)(5).—
(A)
In General.—Subsection (b)(5) applies, regardless of whether anything
of value was exchanged, if the defendant—
(i)
transported, transferred, or otherwise disposed of two or more
firearms to another individual, or received two or more firearms with
the intent to transport, transfer, or otherwise dispose of firearms to
another individual; and
(ii)
knew or had reason to believe that such conduct would result in
the transport, transfer, or disposal of a firearm to an individual—
(I)
whose possession or receipt of the firearm would be
unlawful; or
(II)
(B)

who intended to use or dispose of the firearm unlawfully.

Definitions.—For purposes of this subsection:

"Individual whose possession or receipt of the firearm would be unlawful"
means an individual who (i) has a prior conviction for a crime of violence, a
controlled substance offense, or a misdemeanor crime of domestic violence; or
(ii) at the time of the offense was under a criminal justice sentence, including
probation, parole, supervised release, imprisonment, work release, or escape
status. "Crime of violence" and "controlled substance offense" have the
meaning given those terms in §4B1.2 (Definitions of Terms Used in Section
4B1.1). "Misdemeanor crime of domestic violence" has the meaning given that
term in 18 U.S.C. § 921(a)(33)(A).
The term "defendant", consistent with §1B1.3 (Relevant Conduct), limits the
accountability of the defendant to the defendant's own conduct and conduct
that the defendant aided or abetted, counseled, commanded, induced,
procured, or willfully caused.
(C)
Upward Departure Provision.—If the defendant trafficked substantially
more than 25 firearms, an upward departure may be warranted.
(D)
Interaction with Other Subsections.—In a case in which three or more
firearms were both possessed and trafficked, apply both subsections (b)(1) and
(b)(5). If the defendant used or transferred one of such firearms in connection
with another felony offense (i.e., an offense other than a firearms possession or
trafficking offense) an enhancement under subsection (b)(6)(B) also would
apply.
14.

Application of Subsections (b)(6)(B) and (c)(1).—

Appendix E
57a

(A)
In General.—Subsections (b)(6)(B) and (c)(1) apply if the firearm or
ammunition facilitated, or had the potential of facilitating, another felony
offense or another offense, respectively. However, subsection (c)(1) contains the
additional requirement that the firearm or ammunition be cited in the offense
of conviction.
(B)
Application When Other Offense is Burglary or Drug Offense.—
Subsections (b)(6)(B) and (c)(1) apply (i) in a case in which a defendant who,
during the course of a burglary, finds and takes a firearm, even if the defendant
did not engage in any other conduct with that firearm during the course of the
burglary; and (ii) in the case of a drug trafficking offense in which a firearm is
found in close proximity to drugs, drug-manufacturing materials, or drug
paraphernalia. In these cases, application of subsections (b)(6)(B) and, if the
firearm was cited in the offense of conviction, (c)(1) is warranted because the
presence of the firearm has the potential of facilitating another felony offense
or another offense, respectively.
(C)

Definitions.—
"Another felony offense", for purposes of subsection (b)(6)(B), means any
federal, state, or local offense, other than the explosive or firearms
possession or trafficking offense, punishable by imprisonment for a term
exceeding one year, regardless of whether a criminal charge was
brought, or a conviction obtained.
"Another offense", for purposes of subsection (c)(1), means any federal,
state, or local offense, other than the explosive or firearms possession or
trafficking offense, regardless of whether a criminal charge was brought,
or a conviction obtained.

(D)
Upward Departure Provision.—In a case in which the defendant used or
possessed a firearm or explosive to facilitate another firearms or explosives
offense (e.g., the defendant used or possessed a firearm to protect the delivery
of an unlawful shipment of explosives), an upward departure under §5K2.6
(Weapons and Dangerous Instrumentalities) may be warranted.
(E)
Relationship Between the Instant Offense and the Other Offense.—In
determining whether subsections (b)(6)(B) and (c)(1) apply, the court must
consider the relationship between the instant offense and the other offense,
consistent with relevant conduct principles. See §1B1.3(a)(1)–(4) and
accompanying commentary.

Appendix E
58a

In determining whether subsection (c)(1) applies, the court must also
consider whether the firearm used in the other offense was a firearm
cited in the offense of conviction.
For example:
(i)
Firearm Cited in the Offense of Conviction. Defendant A's
offense of conviction is for unlawfully possessing a shotgun on
October 15. The court determines that, on the preceding February
10, Defendant A used the shotgun in connection with a robbery.
Ordinarily, under these circumstances, subsection (b)(6)(B)
applies, and the cross reference in subsection (c)(1) also applies if
it results in a greater offense level.
Ordinarily, the unlawful possession of the shotgun on February
10 will be "part of the same course of conduct or common scheme
or plan" as the unlawful possession of the same shotgun on
October 15. See §1B1.3(a)(2) and accompanying commentary
(including, in particular, the factors discussed in Application Note
5(B) to §1B1.3). The use of the shotgun "in connection with" the
robbery is relevant conduct because it is a factor specified in
subsections (b)(6)(B) and (c)(1). See §1B1.3(a)(4) ("any other
information specified in the applicable guideline").
(ii)
Firearm Not Cited in the Offense of Conviction. Defendant
B's offense of conviction is for unlawfully possessing a shotgun on
October 15. The court determines that, on the preceding February
10, Defendant B unlawfully possessed a handgun (not cited in the
offense of conviction) and used the handgun in connection with a
robbery.
Subsection (b)(6)(B). In determining whether subsection (b)(6)(B)
applies, the threshold question for the court is whether the two
unlawful possession offenses (the shotgun on October 15 and the
handgun on February 10) were "part of the same course of conduct
or common scheme or plan". See §1B1.3(a)(2) and accompanying
commentary (including, in particular, the factors discussed in
Application Note 5(B) to §1B1.3).
If they were, then the handgun possession offense is relevant
conduct to the shotgun possession offense, and the use of the
handgun "in connection with" the robbery is relevant conduct
because it is a factor specified in subsection (b)(6)(B). See

Appendix E
59a

§1B1.3(a)(4) ("any other information specified in the applicable
guideline"). Accordingly, subsection (b)(6)(B) applies.
On the other hand, if the court determines that the two unlawful
possession offenses were not "part of the same course of conduct
or common scheme or plan," then the handgun possession offense
is not relevant conduct to the shotgun possession offense and
subsection (b)(6)(B) does not apply.
Subsection (c)(1). Under these circumstances, the cross reference
in subsection (c)(1) does not apply, because the handgun was not
cited in the offense of conviction.
15.
Certain Convictions Under 18 U.S.C. §§ 922(a)(6), 922(d), and 924(a)(1)(A).—
In a case in which the defendant is convicted under 18 U.S.C. §§ 922(a)(6), 922(d), or
924(a)(1)(A), a downward departure may be warranted if (A) none of the
enhancements in subsection (b) apply, (B) the defendant was motivated by an
intimate or familial relationship or by threats or fear to commit the offense and was
otherwise unlikely to commit such an offense, and (C) the defendant received no
monetary compensation from the offense.
Historical Note: Effective November 1, 1987. Amended effective November 1, 1989
(amendment 189); November 1, 1990 (amendment 333); November 1, 1991
(amendment 374); November 1, 1992 (amendment 471); November 1, 1993
(amendment 478); November 1, 1995 (amendment 522); November 1, 1997
(amendments 568 and 575); November 1, 1998 (amendments 578 and 586); November
1, 2000 (amendment 605); November 1, 2001 (amendments 629-631); November 1,
2004 (amendment 669); November 1, 2005 (amendments 679 and 680); November 1,
2006 (amendments 686, 691, and 696); November 1, 2007 (amendment 707);
November 1, 2010 (amendment 746); November 1, 2011 (amendment 753); November
1, 2014 (amendment 784); November 1, 2015 (amendments 790 and 797); November
1, 2016 (amendment 804).

Appendix E
60a

§4B1.2.

Definitions of Terms Used in Section 4B1.1

(a)
The term "crime of violence" means any offense under federal or state
law, punishable by imprisonment for a term exceeding one year, that—
(1)
has as an element the use, attempted use, or threatened use of
physical force against the person of another, or
(2)
is murder, voluntary manslaughter, kidnapping, aggravated
assault, a forcible sex offense, robbery, arson, extortion, or the use or
unlawful possession of a firearm described in 26 U.S.C. § 5845(a) or
explosive material as defined in 18 U.S.C. § 841(c).
(b)
The term "controlled substance offense" means an offense under
federal or state law, punishable by imprisonment for a term exceeding one
year, that prohibits the manufacture, import, export, distribution, or
dispensing of a controlled substance (or a counterfeit substance) or the
possession of a controlled substance (or a counterfeit substance) with intent
to manufacture, import, export, distribute, or dispense.
(c)
The term "two prior felony convictions" means (1) the defendant
committed the instant offense of conviction subsequent to sustaining at least
two felony convictions of either a crime of violence or a controlled substance
offense (i.e., two felony convictions of a crime of violence, two felony
convictions of a controlled substance offense, or one felony conviction of a
crime of violence and one felony conviction of a controlled substance offense),
and (2) the sentences for at least two of the aforementioned felony convictions
are counted separately under the provisions of §4A1.1(a), (b), or (c). The date
that a defendant sustained a conviction shall be the date that the guilt of the
defendant has been established, whether by guilty plea, trial, or plea of nolo
contendere.
Commentary
Application Notes:
1.

Definitions.—For purposes of this guideline—
"Crime of violence" and "controlled substance offense" include the offenses of
aiding and abetting, conspiring, and attempting to commit such offenses.
"Forcible sex offense" includes where consent to the conduct is not given or is
not legally valid, such as where consent to the conduct is involuntary,
incompetent, or coerced. The offenses of sexual abuse of a minor and
statutory rape are included only if the sexual abuse of a minor or statutory
rape was (A) an offense described in 18 U.S.C. § 2241(c) or (B) an offense

Appendix E
61a

under state law that would have been an offense under section 2241(c) if the
offense had occurred within the special maritime and territorial jurisdiction
of the United States.
"Extortion" is obtaining something of value from another by the wrongful use
of (A) force, (B) fear of physical injury, or (C) threat of physical injury.
Unlawfully possessing a listed chemical with intent to manufacture a
controlled substance (21 U.S.C. § 841(c)(1)) is a "controlled substance
offense."
Unlawfully possessing a prohibited flask or equipment with intent to
manufacture a controlled substance (21 U.S.C. § 843(a)(6)) is a "controlled
substance offense."
Maintaining any place for the purpose of facilitating a drug offense (21 U.S.C.
§ 856) is a "controlled substance offense" if the offense of conviction
established that the underlying offense (the offense facilitated) was a
"controlled substance offense."
Using a communications facility in committing, causing, or facilitating a drug
offense (21 U.S.C. § 843(b)) is a "controlled substance offense" if the offense of
conviction established that the underlying offense (the offense committed,
caused, or facilitated) was a "controlled substance offense."
A violation of 18 U.S.C. § 924(c) or § 929(a) is a "crime of violence" or a
"controlled substance offense" if the offense of conviction established that the
underlying offense was a "crime of violence" or a "controlled substance
offense". (Note that in the case of a prior 18 U.S.C. § 924(c) or § 929(a)
conviction, if the defendant also was convicted of the underlying offense, the
sentences for the two prior convictions will be treated as a single sentence
under §4A1.2 (Definitions and Instructions for Computing Criminal History).)
"Prior felony conviction" means a prior adult federal or state conviction for an
offense punishable by death or imprisonment for a term exceeding one year,
regardless of whether such offense is specifically designated as a felony and
regardless of the actual sentence imposed. A conviction for an offense
committed at age eighteen or older is an adult conviction. A conviction for an
offense committed prior to age eighteen is an adult conviction if it is classified
as an adult conviction under the laws of the jurisdiction in which the
defendant was convicted (e.g., a federal conviction for an offense committed
prior to the defendant's eighteenth birthday is an adult conviction if the
defendant was expressly proceeded against as an adult).

Appendix E
62a

2.
Offense of Conviction as Focus of Inquiry.—Section 4B1.1 (Career Offender)
expressly provides that the instant and prior offenses must be crimes of violence or
controlled substance offenses of which the defendant was convicted. Therefore, in
determining whether an offense is a crime of violence or controlled substance for the
purposes of §4B1.1 (Career Offender), the offense of conviction (i.e., the conduct of
which the defendant was convicted) is the focus of inquiry.
3.
Applicability of §4A1.2.—The provisions of §4A1.2 (Definitions and
Instructions for Computing Criminal History) are applicable to the counting of
convictions under §4B1.1.
4.
Upward Departure for Burglary Involving Violence.—There may be cases in
which a burglary involves violence, but does not qualify as a "crime of violence" as
defined in §4B1.2(a) and, as a result, the defendant does not receive a higher offense
level or higher Criminal History Category that would have applied if the burglary
qualified as a "crime of violence." In such a case, an upward departure may be
appropriate.
Historical Note: Effective November 1, 1987. Amended effective January 15, 1988
(amendment 49); November 1, 1989 (amendment 268); November 1, 1991
(amendment 433); November 1, 1992 (amendment 461); November 1, 1995
(amendment 528); November 1, 1997 (amendments 546 and 568); November 1, 2000
(amendment 600); November 1, 2002 (amendments 642 and 646); November 1, 2004
(amendment 674); November 1, 2007 (amendment 709); November 1, 2009
(amendment 736); November 1, 2015 (amendment 795); August 1, 2016
(amendment 798).

Appendix F
63a

Colorado Revised Statutes Provisions
Colorado Revised Statutes § 18-2-101. Criminal attempt
(1) A person commits criminal attempt if, acting with the kind of culpability otherwise
required for commission of an offense, he engages in conduct constituting a
substantial step toward the commission of the offense. A substantial step is any
conduct, whether act, omission, or possession, which is strongly corroborative of the
firmness of the actor's purpose to complete the commission of the offense. Factual or
legal impossibility of committing the offense is not a defense if the offense could have
been committed had the attendant circumstances been as the actor believed them to
be, nor is it a defense that the crime attempted was actually perpetrated by the
accused.
(2) A person who engages in conduct intending to aid another to commit an offense
commits criminal attempt if the conduct would establish his complicity under section
18-1-603 were the offense committed by the other person, even if the other is not
guilty of committing or attempting the offense.
(3) It is an affirmative defense to a charge under this section that the defendant
abandoned his effort to commit the crime or otherwise prevented its commission,
under circumstances manifesting the complete and voluntary renunciation of his
criminal intent.
(3.5) Criminal attempt to commit any crime for which a court is required to sentence
a defendant for a crime of violence in accordance with section 18-1.3-406 is itself a
crime of violence for the purposes of that section.
(4) Criminal attempt to commit a class 1 felony is a class 2 felony; criminal attempt
to commit a class 2 felony is a class 3 felony; criminal attempt to commit a class 3
felony is a class 4 felony; criminal attempt to commit a class 4 felony is a class 5
felony; criminal attempt to commit a class 5 or 6 felony is a class 6 felony.
(5) Criminal attempt to commit a felony which is defined by any statute other than
one contained in this title and for which no penalty is specifically provided is a class
6 felony.
(6) Criminal attempt to commit a class 1 misdemeanor is a class 2 misdemeanor.
(7) Criminal attempt to commit a misdemeanor other than a class 1 misdemeanor is
a class 3 misdemeanor.
(8) Criminal attempt to commit a petty offense is a crime of the same class as the
offense itself.

Appendix F
64a

(9) The provisions of subsections (4) to (8) of this section shall not apply to a person
who commits criminal attempt to escape. A person who commits criminal attempt to
escape shall be punished as provided in section 18-8-208.1.
(10)
(a) Except as otherwise provided by law, criminal attempt to commit a level 1
drug felony is a level 2 drug felony; criminal attempt to commit a level 2 drug
felony is a level 3 drug felony; criminal attempt to commit a level 3 drug felony
is a level 4 drug felony; and criminal attempt to commit a level 4 drug felony
is a level 4 drug felony.
(b) Except as otherwise provided by law, criminal attempt to commit a level 1
drug misdemeanor is a level 2 drug misdemeanor; and criminal attempt to
commit a level 2 drug misdemeanor is a level 2 drug misdemeanor.

Appendix F
65a

Colorado Revised Statutes § 18-3-203. Assault in the second degree
(1) A person commits the crime of assault in the second degree if:
(a) Repealed by Laws 1994, H.B.94-1126, § 8, eff. July 1, 1994.
(b) With intent to cause bodily injury to another person, he or she causes such
injury to any person by means of a deadly weapon; or
(c) With intent to prevent one whom he or she knows, or should know, to be a
peace officer, firefighter, emergency medical care provider, or emergency
medical service provider from performing a lawful duty, he or she intentionally
causes bodily injury to any person; or
(c.5) With intent to prevent one whom he or she knows, or should know, to be
a peace officer, firefighter, or emergency medical service provider from
performing a lawful duty, he or she intentionally causes serious bodily injury
to any person; or
(d) He recklessly causes serious bodily injury to another person by means of a
deadly weapon; or
(e) For a purpose other than lawful medical or therapeutic treatment, he
intentionally causes stupor, unconsciousness, or other physical or mental
impairment or injury to another person by administering to him, without his
consent, a drug, substance, or preparation capable of producing the intended
harm; or
(f) While lawfully confined or in custody, he or she knowingly and violently
applies physical force against the person of a peace officer, firefighter, or
emergency medical service provider engaged in the performance of his or her
duties, or a judge of a court of competent jurisdiction, or an officer of said court,
or, while lawfully confined or in custody as a result of being charged with or
convicted of a crime or as a result of being charged as a delinquent child or
adjudicated as a delinquent child, he or she knowingly and violently applies
physical force against a person engaged in the performance of his or her duties
while employed by or under contract with a detention facility, as defined in
section 18-8-203(3), or while employed by the division in the department of
human services responsible for youth services and who is a youth services
counselor or is in the youth services worker classification series, and the person
committing the offense knows or reasonably should know that the victim is a
peace officer, firefighter, or emergency medical service provider engaged in the
performance of his or her duties, or a judge of a court of competent jurisdiction,
or an officer of said court, or a person engaged in the performance of his or her
duties while employed by or under contract with a detention facility or while

Appendix F
66a

employed by the division in the department of human services responsible for
youth services. A sentence imposed pursuant to this paragraph (f) shall be
served in the department of corrections and shall run consecutively with any
sentences being served by the offender; except that, if the offense is committed
against a person employed by the division in the department of human services
responsible for youth services, the court may grant probation or a suspended
sentence in whole or in part, and the sentence may run concurrently or
consecutively with any sentences being served. A person who participates in a
work release program, a furlough, or any other similar authorized supervised
or unsupervised absence from a detention facility, as defined in section 18-8203(3), and who is required to report back to the detention facility at a specified
time is deemed to be in custody.
(f.5)
(I) While lawfully confined in a detention facility within this state, a
person with intent to infect, injure, harm, harass, annoy, threaten, or
alarm a person in a detention facility whom the actor knows or
reasonably should know to be an employee of a detention facility, causes
such employee to come into contact with blood, seminal fluid, urine,
feces, saliva, mucus, vomit, or any toxic, caustic, or hazardous material
by any means, including but not limited to throwing, tossing, or
expelling such fluid or material.
(II) Repealed by Laws 2015, Ch. 109, § 1, eff. July 1, 2015.
(III)
(A) As used in this paragraph (f.5), “detention facility” means
any building, structure, enclosure, vehicle, institution, or place,
whether permanent or temporary, fixed or mobile, where
persons are or may be lawfully held in custody or confinement
under the authority of the state of Colorado or any political
subdivision of the state of Colorado.
(B) As used in this paragraph (f.5), “employee of a detention
facility” includes employees of the department of corrections,
employees of any agency or person operating a detention facility,
law enforcement personnel, and any other persons who are
present in or in the vicinity of a detention facility and are
performing services for a detention facility. “Employee of a
detention facility” does not include a person lawfully confined in
a detention facility.

Appendix F
67a

(g) With intent to cause bodily injury to another person, he or she causes
serious bodily injury to that person or another; or
(h) With intent to infect, injure, or harm another person whom the actor
knows or reasonably should know to be engaged in the performance of his or
her duties as a peace officer, a firefighter, an emergency medical care
provider, or an emergency medical service provider, he or she causes such
person to come into contact with blood, seminal fluid, urine, feces, saliva,
mucus, vomit, or any toxic, caustic, or hazardous material by any means,
including by throwing, tossing, or expelling such fluid or material; or
(i) With the intent to cause bodily injury, he or she applies sufficient pressure
to impede or restrict the breathing or circulation of the blood of another
person by applying such pressure to the neck or by blocking the nose or
mouth of the other person and thereby causes bodily injury.
(2)
(a) If assault in the second degree is committed under circumstances where
the act causing the injury is performed upon a sudden heat of passion, caused
by a serious and highly provoking act of the intended victim, affecting the
person causing the injury sufficiently to excite an irresistible passion in a
reasonable person, and without an interval between the provocation and the
injury sufficient for the voice of reason and humanity to be heard, it is a class
6 felony.
(b) If assault in the second degree is committed without the circumstances
provided in paragraph (a) of this subsection (2), it is a class 4 felony.
(b.5) Assault in the second degree by any person under subsection (1) of this
section without the circumstances provided in paragraph (a) of this
subsection (2) is a class 3 felony if the person who is assaulted, other than a
participant in the crime, suffered serious bodily injury during the commission
or attempted commission of or flight from the commission or attempted
commission of murder, robbery, arson, burglary, escape, kidnapping in the
first degree, sexual assault, sexual assault in the first or second degree as
such offenses existed prior to July 1, 2000, or class 3 felony sexual assault on
a child.
(c)
(I) If a defendant is convicted of assault in the second degree pursuant
to paragraph (c.5) of subsection (1) of this section or paragraph (b.5) of
this subsection (2), except with respect to sexual assault or sexual
assault in the first degree as it existed prior to July 1, 2000, the court

Appendix F
68a

shall sentence the defendant in accordance with the provisions of
section 18-1.3-406. A defendant convicted of assault in the second
degree pursuant to paragraph (b.5) of this subsection (2) with respect
to sexual assault or sexual assault in the first degree as it existed prior
to July 1, 2000, shall be sentenced in accordance with section 18-1.3401(8)(e) or (8)(e.5).
(II) If a defendant is convicted of assault in the second degree pursuant
to paragraph (b), (c), (d), or (g) of subsection (1) of this section, the
court shall sentence the offender in accordance with section 18-1.3-406;
except that, notwithstanding the provisions of section 18-1.3-406, the
court is not required to sentence the defendant to the department of
corrections for a mandatory term of incarceration.
(d) For purposes of determining sudden heat of passion pursuant to
subsection (2)(a) of this section, a defendant's act does not constitute an act
performed upon a sudden heat of passion if it results solely from the
discovery of, knowledge about, or potential disclosure of the victim's actual or
perceived gender, gender identity, gender expression, or sexual orientation,
including but not limited to under circumstances in which the victim made an
unwanted nonforcible romantic or sexual advance toward the defendant.
(3) Repealed by Laws 2016, Ch. 304, § 4, eff. July 1, 2016.

